  Office of Inspector General
      Audit Report


FAA NEEDS TO STRENGTHEN CONTROLS
OVER THE 2009 FAA/NATCA COLLECTIVE
      BARGAINING AGREEMENT
       Federal Aviation Administration
        Report Number: AV-2011-120
         Date Issued: June 9, 2011
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Needs To Strengthen Controls                                        Date:       June 9, 2011
           Over the 2009 FAA/NATCA Collective
           Bargaining Agreement
           Federal Aviation Administration
           Report Number AV-2011-120

  From:    Jeffrey B. Guzzetti                                                             Reply to
                                                                                           Attn. of:    JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Director, Audit and Evaluation

           On October 1, 2009, the Federal Aviation Administration (FAA) entered into a 3-
           year collective bargaining agreement (CBA) with the National Air Traffic
           Controllers Association (NATCA). This agreement is the first successfully
           negotiated CBA since a 5-year agreement ratified with the union in 1998. The
           1998 agreement was the first one between FAA and NATCA that included pay
           and benefits; however, it far exceeded FAA’s initial $200 million cost estimate,
           eventually requiring more than $1 billion in additional funds. The 2009 CBA
           reinstates numerous provisions of the 1998 agreement. FAA estimates that the
           2009 agreement will cost $669 million more than extending the controller work
           rules that were in place prior to implementing the new agreement. 1

           Representative John L. Mica, Chairman of the House Committee on
           Transportation and Infrastructure, requested that we review the costs associated
           with the 2009 CBA given the significant cost overruns associated with the 1998
           agreement. Accordingly, our objectives were to (1) evaluate the accuracy and
           completeness of FAA’s cost estimate of the new CBA, (2) identify contract
           provisions that could escalate the cost, and (3) determine if FAA has sufficient
           controls in place to prevent such escalations. Exhibit A details our scope and
           methodology. Exhibit C lists the FAA facilities visited or contacted during this
           audit.

           1
               FAA refers to the personnel system changes made in 2006 as a “contract” with the controllers union. In contrast, the
               union refers to the changes as “imposed work rules.” For the purposes of this report, we will refer to them as the
               “2006 work rules” to differentiate them from the agreements that were successfully negotiated in 1998 and 2009.
                                                                                                                     2


We conducted this review between March 2010 and April 2011 in accordance with
government auditing standards prescribed by the Comptroller General of the
United States.

RESULTS IN BRIEF
FAA estimates that the 2009 CBA will cost the Agency $669 million more than it
would have cost to extend the 2006 work rules for 3 more years. While FAA’s
methodology for developing this estimate appears to be reasonable, it includes
several key assumptions that may increase the total costs. For example, most of
the costs associated with the 2009 CBA were for increased salaries and benefits
for air traffic controllers. However, these costs will be directly influenced by
factors such as the rate at which veteran controllers retire and are replaced by new
controllers with lower salaries and benefits. In developing its estimate, FAA
assumed that the retirement rate of veteran controllers and overtime usage would
be comparable to historical data. However, if either of these factors varies from
FAA’s projections, the portion of the cost estimate related to controller pay and
benefits could be impacted. For instance, FAA projected in its 2009 Controller
Workforce Plan that 779 controllers would retire in fiscal year (FY) 2010. 2
However, the actual number of controller retirements for FY 2010 was 468. As a
result of the lower retirement rate, FAA personnel costs under the 2009 CBA were
$14 million higher than it initially estimated for the first year of the contract.

We identified provisions in the 2009 CBA, such as negotiated memoranda of
understanding (MOU) and controller workgroups, 3 that could escalate costs
beyond FAA’s estimate. Similar provisions in the 1998 agreement that were not
effectively managed ultimately led to significant additional costs. For example, in
2003 we identified hundreds of negotiated MOUs that resulted in $23 million in
overtime costs, $1.8 million in cash awards, $30 million in additional salary
incentives, and 65,000 hours in time-off awards. 4 We found that FAA officials
could not reliably estimate the costs of these provisions in the 2009 CBA cost
projection but assumed that FAA management would control costs to minimize
the impact.

FAA established controls in 2003 that it believes will be sufficient to prevent
additional costs with MOUs in the 2009 CBA. These include reviews by Agency
officials and budgetary analysis of MOUs before they can be signed. We found,
however, that those controls are insufficient to prevent cost escalations and that
Agency personnel do not consistently adhere to them. We identified three areas
2
    The Federal Aviation Administration’s 10-Year Strategy for the Air Traffic Control Workforce 2009-2018. Report
    Number 2009-AJF-137.
3
    The 2009 CBA allows NATCA and air traffic facility managers to negotiate issues involving personnel policies,
    practices, and matters affecting working conditions that are not specifically addressed by the national agreement.
4
    OIG Report Number AV-2003-059, “FAA’s Management of and Control Over Memorandums of Understanding,”
    September 12, 2003. OIG reports are available on our Web site: http://www.oig.dot.gov.
                                                                                                                      3


where FAA’s internal controls are currently insufficient to prevent contract cost
escalations. First, although FAA has a detailed policy for reviewing and
approving MOUs before they can be implemented, we found that some local air
traffic managers and regional managers do not strictly comply with the steps
specified in the policy. Second, we found that the national MOU database, FAA’s
primary tool for tracking all national, regional, and local MOUs, is not yet fully
operational.    Finally, FAA does not have adequate controls over union
participation in workgroups. Without sufficient internal controls covering these
areas, FAA risks repeating the mistakes that contributed to some of the cost
overruns that occurred during the 5-year term of the 1998 CBA.

We are making recommendations to help FAA ensure its internal control policies
are sufficient to prevent cost escalations associated with the 2009 CBA.

BACKGROUND
NATCA represents FAA’s largest labor force, with over 15,000 controllers
nationwide. The 2009 CBA between FAA and NATCA is the first successfully
negotiated Agreement since the 5-year CBA in 1998. The 1998 agreement was
extended past its 2003 expiration date while FAA and NATCA negotiated a new
labor agreement. After negotiations failed in 2006, FAA submitted its last offer to
Congress. 5 When Congress did not take action within the 60 days prescribed by
law, FAA imposed its last offer, effective September 3, 2006. The 2006 work rules
lowered the pay bands that set controller pay, which significantly lowered the
salaries of developmental controllers as well as those hired after the
implementation of the 2006 work rules.

On May 19, 2009, FAA announced the start of mediation talks between the
Agency and NATCA. The parties agreed to extensive mediation sessions and
binding arbitration of any unresolved issues. 6 On September 23, 2009, the final
mediation agreement was ratified by NATCA’s membership. The new Agreement
will remain in effect from October 2009 through September 2012. FAA currently
estimates that the Agreement will cost $669 million over and above what it would
have cost had the 2006 work rules been extended for 3 more years. Figure 1
shows a timeline of negotiations between FAA and NATCA for the 2006 work
rules through the implementation of the 2009 CBA.



5
    Under the Federal Aviation Administration personnel management system (49 U.S.C. § 40122), if after using the
    services of the Federal Mediation and Conciliation Service the FAA Administrator does not reach an Agreement
    with employee unions during labor negotiations, the Administrator must submit the proposed changes with the
    union’s reasons for its objections, to Congress. After submission to Congress, the Administrator’s proposed changes
    may take effect 60 days later.
6
    The unresolved issues that were decided by the arbiter included the pay bands that FAA uses to set controller pay.
                                                                                                                     4


                                 Figure 1. Collective Bargaining Timeline

     Formal                              FAA                           FAA and                          2009
     contract                            imposes                       NATCA                            Agreement
     negotiations                        2006 work                     agree to                         begins
     begin                               rules                         new
                                                                       contract


                                         September 3,                  August 19,    September 23,     October 1,
     July 18, 2005    April 5, 2006                     May 19, 2009
                                            2006                         2009            2009            2009



                     FAA declares
                                                        FAA and                       NATCA
                     impasse and sends
                                                        NATCA                         membership
                     both FAA and
                                                        begin                         ratifies the
                     NATCA Proposals
                                                        mediation                     agreement
                     to Congress




FAA’S METHODOLOGY FOR CALCULATING THE 2009 CBA
ESTIMATE IS REASONABLE BUT RELIES ON ASSUMPTIONS
THAT COULD IMPACT COSTS
While FAA’s methodology for calculating its $669 million cost estimate for the
2009 CBA is reasonable, it includes some assumptions that could impact costs.
FAA estimates that the 2009 CBA will cost the Agency $669 million more than it
would have cost to extend the 2006 work rules for 3 more years. 7 The majority of
FAA’s estimate ($645 million) will result from increases in pay and related
benefits for controllers. 8 The remaining $24 million will cover the non-pay
provisions in the contract. However, the accuracy of FAA’s pay estimates will
ultimately depend on unknown factors, such as the rate and timing of controller
retirements over the 3 years of the CBA.

The Majority of the Contract Cost Is From Increased Pay and Benefits
FAA calculated that $645 million of its cost estimate for the 2009 CBA would
come from three sources: increased salaries and benefits for controllers
($527 million—salaries and benefits), a local incentive pay for controllers at
specific facilities ($86 million—controller incentive pay), and additional pay for
controllers who fill in for a supervisor if one is not available ($32 million—
controller-in-charge pay). Based on FAA’s methodology for estimating the costs
related to pay, we consider this estimate to be reasonable.



7
    To develop its estimate, FAA used a computerized model that enabled it to estimate the cost of proposed provisions
    during negotiations with NATCA.
8
    Pay rates for controllers can be found in Exhibit B of this report.
                                                                                         5


Salaries and Benefits
When calculating the cost of increased controller salaries, FAA differentiated
between controllers who were certified as of September 30, 2006 (shortly after the
2006 work rules were implemented), and those still in training or not yet hired as
of that date. FAA estimated that:

     • pay increases and benefits for controllers who were fully certified (known as
       Certified Professional Controllers or CPCs) as of September 30, 2006, will
       cost the Agency $117 million.

     • pay increases and benefits for newly hired prospective controllers and
       developmental controllers in training at facilities as of September 30, 2006,
       will cost the Agency $410 million.

Despite the current 2-year pay freeze on civilian Federal employees and the lack
of any provisions in the contract that relate to controller productivity, both groups
of controllers are also contractually guaranteed to receive a 3-percent annual
salary increase in January 2010, 2011, and 2012. Controllers who are retirement
eligible received an additional 1-percent annual raise in January 2010 and 2011.
Controllers are exempt from the pay freeze because these annual raises were part
of a negotiated agreement between FAA and NATCA. 9 Based on the FAA’s
methodology, we consider FAA’s estimate of $527 million for increased pay and
benefits to be reasonable.

Controller Incentive Pay
FAA also incorporated Controller Incentive Pay (CIP) into its cost estimate. CIP
is a locally based incentive paid in addition to locality pay. It is designed to
encourage controllers to transfer to designated hard-to-staff facilities. Under the
terms of the 2006 work rules, CIP was scheduled to be phased out by FY 2010.
However, CIP has been reimplemented under the 2009 CBA and is capped at
$30 million per year.

During this audit, we found that CIP cost FAA about $27 million in FY 2010, or
about 10 percent less than the annual CBA cap of $30 million. Overall, FAA
estimated that CIP will cost $86 million over the 3-year life of the CBA. Since the
CBA caps the amount of CIP, we consider FAA’s estimate of an additional
$86 million for FYs 2010 through 2012 to be reasonable.

Controller-In-Charge Pay
FAA estimated that Controller-In-Charge (CIC) pay will cost the Agency
$32 million over the 3-year period of the Agreement. CIC pay provides

9
    49 U.S.C. § 40122 permits FAA to negotiate pay as a part of collective bargaining.
                                                                                    6


controllers that perform supervisory roles with a temporary 10-percent pay
increase when filling in for a supervisor. CIC pay was eliminated from the 2006
work rules but was reinstated as part of the 2009 Agreement. FAA facilities that
we visited reported that CIC usage has not changed since the effective date of the
2009 CBA. Although FAA estimated that CIC pay would cost approximately
$9.7 million in 2010, the actual expense was about $9.0 million, or about
7.2 percent less than anticipated in the contract cost estimate. For the last 2 years
of the labor agreement, FAA expects to spend $10.8 million and $11.3 million,
respectively on CIC pay. The estimated cost of was calculated using a percentage
of past salary data. Therefore, if CIC use follows historical trends, FAA’s
estimate should be accurate, and we consider FAA’s CIC pay estimate to be
reasonable.

Provisions Not Directly Related to Controller Pay Are Also Included in
FAA’s Estimate
FAA also included an estimate for provisions of the 2009 CBA that were not
directly related to controller pay and benefits such as policy changes, controller
workgroup participation, and resolution of grievances that controllers filed before
the 2009 CBA. FAA estimated that these items and other non-pay provisions
would cost $24 million more than it would have to extend the 2006 work rules for
3 years. The majority of these costs are associated with the requirement to include
NATCA representatives in workgroups, which was projected to cost roughly
$16 million over the life of the contract. Other non-pay elements include costs
such as the increase in official time for facility representation, changes to
grievence procedures, holiday duty assignment changes, and other excused
absences. Many of these costs are either defined by provisions in the 2009 CBA
or are not expected to vary.
The cost to arbitrate more than 400,000 outstanding NATCA grievances (as of
September 30, 2009) was also included in FAA’s estimate, but not the cost of
grievance settlements against the Agency because the grievances were filed prior
to the implementation of the 2009 CBA. While FAA is still addressing these
grievances, a large number of them have been closed without significant cost to
FAA. As of October 2010, FAA had yet to settle approximately 15,000
grievances that were filed prior to the 2009 CBA. Although the cost of individual
judgements for pre-existing grievances are not considered a contract cost, the
Agency will still have to pay out any resulting judgements, which could limit
resources available for other programs or needs. We consider FAA’s estimate for
non-pay costs to be reasonable.
                                                                                   7


FAA’s Methodology for Calculating Pay Is Reasonable but Some Key
Assumptions Could Impact Costs
While FAA’s methodology for calculating pay is reasonable, the accuracy of
FAA’s pay estimate will ultimately depend on the accuracy of its assumptions.
For example, FAA formulated its cost estimate based on the assumption that
controllers would retire at the rate reported in its 2009 Controller Workforce Plan
(CWP). However, that rate was based in part on past retirement rates, which were
higher than anticipated in 2007 and 2008 following the implementation of the
2006 work rules. Conversely, controller retirements since the 2009 CBA became
effective have been less than projected in the 2009 CWP. For example, during
FY 2010, about 300 fewer controllers retired than FAA projected.

As a result of fewer controllers retiring than expected, FAA’s pay and benefits
costs under the current contract were $14 million higher than it initially estimated
for the first year of the contract. Table 1 shows the estimated pay and benefits
cost for air traffic controllers for FY 2010 through FY 2012.
   Table 1. Estimated Air Traffic Controller Pay and Benefits, FY 2010–FY 2012
                                   ($ in millions)
                      Cost         FY 2010    FY 2011     FY 2012
                 Estimated Cost    $2,596      $2,727      $2,866

                 Actual Cost       $2,610       TBD         TBD

                 Difference          $14        TBD         TBD
               Source: FAA

Given the potential impact of retirements on the accuracy of FAA’s estimate,
potentially higher pay and benefits costs in the second and third years of the CBA,
and FAA’s history of cost escalations with the 1998 agreement, the contract costs
could increase.

SOME PROVISIONS OF THE 2009 COLLECTIVE BARGAINING
AGREEMENT COULD ESCALATE COSTS ABOVE FAA’S
ESTIMATE
We identified provisions of the 2009 CBA that could escalate costs. These
provisions include mid-term bargaining, or MOUs, at the national and local levels
and the use of overtime associated with controller workgroups. These provisions
were strictly controlled under the 2006 work rules after they led to cost overruns
with the 1998 agreement. However, we found that FAA officials could not
reliably estimate the costs of these provisions in the 2009 CBA cost projection but
                                                                                   8


assumed that FAA management would control costs to minimize the impact. If
FAA does not properly manage these provisions, they could once again lead to
significant cost growth for FAA.

Memoranda of Understanding Must Be Carefully Monitored
FAA must carefully monitor its MOUs to avoid cost escalation. While we did not
find any specific instances of costly or problematic MOUs during our review,
MOUs have been a problem in the past. During our past work on FAA’s
management and controls over MOUs, we found that FAA had significant
problems with MOU provisions that were expensive or not in the Government’s
best interest. For example, we found that between FY 2001 and FY 2003, FAA
and NATCA agreed to MOUs that resulted in:

 • $23 million in overtime costs,
 • $1.8 million in cash awards,
 • $30 million in additional salary incentives, and
 • 65,000 hours in time-off awards.

Given FAA’s past problems, it needs to closely monitor these agreements going
forward. FAA officials expressed concern that an expensive MOU implemented
at one facility could establish a precedent that would enable union representatives
at other facilities to negotiate similar agreements. Consequently, one costly or
problematic MOU has the potential to impact negotiations and the costs incurred
at facilities nationwide. FAA would be obligated to honor the agreement,
provided it did not contain illegal provisions or did not conflict with the national
agreement. In 2003, FAA identified 14 MOUs that it regarded as “problematic” or
costly and asked NATCA to renegotiate. The negotiations took months to resolve,
and the MOUs’ costly provisions remained in effect during that time.

Overtime Costs Could Increase With Workgroup Participation
Overtime usage could increase the cost of the 2009 CBA above the $669 million
estimate. FAA officials assumed that overtime costs for the 3-year period of the
2009 CBA would remain similar to what they were under the 2006 work rules.
During this audit, we discussed the use of overtime with facility managers who
stated that overtime usage has been a useful management tool for meeting facility-
level staffing needs and has not changed as a result of provisions in the 2009 CBA.
Figure 2 below shows how the trend in overtime cost has fallen over the past
3 years, including FY 2010, the first year of the 2009 CBA. From FY 2008
through FY 2010, the overall cost of overtime has decreased by 10.4 percent.
                                                                                                                     9


                             Figure 2. Overtime Costs - FY 2008–FY 2010
                                            ($ in millions)

                                                                                                   $68.0
                                                                                                   $66.0
                                                                                                   $64.0
                                                                                                   $62.0
                         $67.3                                                                     $60.0
                                                                                                   $58.0
                                               $65.0
                                                                                                   $56.0
                                                                      $60.3



               FY 2008               FY 2009                FY 2010

     Source: FAA Payroll Database: Federal Personnel and Payroll System (FPPS)

Although overtime decreased in FY 2010, facility managers we interviewed
expressed concern that it may begin to increase. They specifically cited controller
participation in workgroups on technological or procedural changes as a potential
source of cost escalation. 10 Although the facility managers stated that workgroups
can offer positive benefits by involving controllers in the decision-making process,
they also noted that union participation in workgroups has been expensive in the
past because of the need to backfill controller absences with overtime.
A past MOU between FAA and NATCA concerning National Airspace Redesign
(NAR) specified that all facilities involved in airspace redesign would receive
overtime to cover absences for controllers involved in NAR activities. In our
report on MOUs, we found that at one facility alone, FAA spent approximately
$843,000 in overtime to cover for six part-time participants, and three full-time
participants on various NAR workgroups.
While overtime has not increased in the first year of the 2009 CBA, it has been an
issue in the past, particularly following the 1998 agreement.

FAA LACKS ADEQUATE CONTROLS OVER CONTRACT COST
ESCALATION IN THREE KEY AREAS
We identified three areas where FAA’s internal controls are currently insufficient
to prevent contract cost escalations. First, although FAA has a detailed policy for
reviewing and approving MOUs before they can be implemented, we found that
some local air traffic managers and regional managers do not strictly comply with
10
     Workgroups are temporary groups consisting of management and labor representatives that are established to answer
     a technical question.
                                                                                                      10


the steps specified in the policy. Second, we found that the national MOU
database—FAA’s primary tool for tracking all national, regional, and local
MOUs—is not yet fully operational. Finally, FAA does not have adequate
controls over union participation in workgroups. Without sufficient internal
controls covering these areas, FAA risks repeating the mistakes that contributed to
some of the cost overruns that occurred during the 5-year term of the 1998 CBA.

FAA Is Not Consistently Following Its MOU Review Policy
FAA is not consistently following its policy designed to ensure that all MOUs are
reviewed in a timely manner. This policy was implemented during our prior
review of FAA’s management and controls over MOUs. Two months after
initiating our prior review, we briefed the FAA Administrator on our concerns
over the significant control weaknesses and budgetary impact that we identified.
As a result of that meeting, FAA issued an Agency directive in June 2003. 11 The
Order made significant changes to the Agency’s process for negotiating,
approving, and implementing MOUs. For example, the Order specified the
following requirements:

     1. A labor-management relations specialist must lead all national and regional
        negotiations.
     2. All MOUs must be reviewed by the next higher organizational level prior to
        signature.
     3. Proposed agreements must be accompanied by a budget analysis.
     4. MOUs must contain mandatory provisions, such as specific expiration dates.
     5. All MOUs must be reviewed by officials designated by the FAA
        Administrator within 30 days of signature by the facility management and the
        union negotiators.

We found that FAA officials are not reviewing prospective MOUs according to
the requirements outlined in the FAA Order. For example, of the 77 MOUs that
FAA’s Eastern Region reported to us:

     • 9 (12 percent) were not reviewed by regional labor relations representatives
       before the negotiating parties signed them,
     • 22 (29 percent) had no budget analysis, and
     • 28 (36 percent) did not undergo required senior level review within 30 days
       after the negotiating parties signed the agreements.


11
     FAA Order 3710.18, “Internal Coordination Requirements for Negotiating Term and Mid-Term Agreements
     (Including Memoranda of Understanding and Memoranda of Agreement) with FAA Unions.”
                                                                                11


In other FAA regions we found additional indications that personnel did not
consistently follow the procedures established in the FAA Order. For example,
FAA’s Southern Region MOU data indicated that 31 of 135 MOUs, or about
23 percent, had no Agency Head review within the required 30 days after
signature. In addition, data from the Great Lakes Region indicated similar
deviations from FAA policy. Of the 191 MOUs reported, 72 MOUs, or about
38 percent, also had not received appropriate review within the required 30 days
after signature.

FAA’s Database for Tracking MOUs Is Not Fully Operational
FAA’s database for tracking all MOUs signed at the national, regional, or facility
level is not fully operational. FAA developed this database in response to our
2003 report. The database had storage/retrieval capabilities and multiple search
functions that allowed FAA to track all MOUs and identify their budgetary
impact. The new procedures developed in 2003 provided FAA with much-needed
controls over the MOU process.

However, the original MOU database was discontinued in 2009 when FAA
decided to switch to a new Web-based system upon implementing the new CBA.
FAA is currently creating another Web-based database and, as of November 2010,
the new system did not contain all the MOUs that have been signed since the 2009
CBA. As a result, FAA Headquarters is unaware of agreements being signed at
the regional and local levels and may not be aware of agreements that might
increase FAA operational costs.

The lack of a comprehensive database places FAA at a disadvantage during MOU
negotiation. According to FAA officials, NATCA representatives have access to
all current FAA/NATCA MOUs through a NATCA Web site when conducting
negotiations. However, FAA representatives only have access to those MOUs at
their own facility or regional office. Without the database in place, FAA lacks a
critical control in avoiding costly or problematic MOUs.

FAA Has Limited Controls Over Controller Workgroups
FAA has limited controls over labor/management workgroups that are permitted
under the 2009 CBA. According to the agreement, FAA and NATCA agree that it
is mutually beneficial for the union to be involved in workgroups established at
the local, regional, or national level to provide operational perspective in the
development or deployment of technological, procedural, or airspace changes.
Controller participation in various Next Generation Air Transportation System
(NextGen) efforts has been limited thus far, but is expected to grow as efforts
switch from planning to implementation. FAA has not assessed the potential
impact of the CBA or controller participation on NextGen or other capacity-
enhancing initiatives.
                                                                                  12


We are also concerned that FAA has very limited management controls to oversee
the formation, employee participation, and productivity expectations of
workgroups. While there may be legitimate needs for their formation, more clarity
is needed with respect to the need for workgroups, when and where they meet, and
any expectations of productivity. The only guidelines regarding the oversight of
workgroups are listed in the 2009 CBA, and these guidelines do not contain clear
requirements or criteria. They only address areas such as notification of the Union
of new workgroups, defining their scope, and that the agreements reached will be
in writing and binding to both parties. FAA has not developed effective policies
and procedures to ensure that workgroup objectives are met, and that these
collaborative efforts do not replace or erode its management authority or its rights
as defined by Federal labor law.

CONCLUSION
FAA must ensure it does not repeat the management problems that occurred with
the 1998 NATCA agreement that allowed significant cost increases. While both
FAA and NATCA view the 2009 CBA as an improvement from the 2006 work
rules, FAA must continually increase oversight of its policies and controls to
ensure the agreement effectively addresses issues that impact one of the Nation’s
key workforces without creating an undue burden for taxpayers.

RECOMMENDATIONS
We recommend that FAA:

 1) Update the contract cost estimate of the 2009 CBA annually to reflect any
    changes to the underlying assumptions and incorporate it into its annual
    budget request.

 2) Expedite completion of the MOU database and enter all MOUs that were
    agreed to since the 2009 CBA was enacted.

 3) Conduct an internal evaluation of its MOU policies and procedures to ensure
    that the guidelines incorporated in FAA Order 3710.18 are being followed.

 4) Implement formal policies and procedures to oversee the formation of
    controller workgroups, workgroup productivity, and the implementation of
    workgroup results and agreements.
                                                                                13


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with a draft copy of this report on April 14, 2011, for comment
and received FAA's response on May 19, 2011. FAA's entire response is included
at the appendix to this report. In its response, FAA fully concurred with
recommendations 1, 2, and 3 and provided reasonable timeframes for completing
the planned actions. FAA partially concurred with recommendation 4, but
provided alternative courses of action that meet the intent of our recommendation.
Those actions are also expected to be completed within a reasonable timeframe.

ACTIONS REQUIRED
We consider all four recommendations resolved but open pending completion of
the planned actions. We appreciate the courtesies and cooperation of FAA and
NATCA representatives during this audit. If you have any questions concerning
this report, please contact me at (202) 366-0500 or Bob Romich, Program
Director, at (202) 366-6478.

                                        #

cc: Anthony Williams, AAE-001
    Martin Gertel, M-100
                                                                                   14



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. The audit was conducted between March 2010 and
April 2011, and included site visits to FAA and NATCA Headquarters,
18 Terminal Services facilities (ATCTs and TRACONs), 6 ARTCCs, and 5 FAA
Regional Offices. A full list of air traffic facilities we visited or contacted during
this audit—which were judgmentally selected based on their geographic location,
facility type, and history of labor relations—can be found in Exhibit C.

To evaluate the accuracy and completeness of FAA’s cost estimate, we analyzed
the estimate and met with FAA employees that developed the estimate in order to
assess the methodology used to calculate the 2009 CBA’s cost. This included
analyzing the model used in the estimation process and evaluating the practices
and assumptions used to develop the model. We also determined if FAA had
included all costs of the 2009 CBA into its estimates. We did this by reviewing
the 2009 CBA, comparing it to 2006 work rules, identifying changes that the 2009
CBA brought, and then determining whether these changes were accounted for in
FAA’s estimate. As the accuracy of the estimate relies on underlying
assumptions, we interviewed FAA Headquarters Labor Relations officials to
determine if the assumptions were fair. We also obtained 2009 CBA cost data for
FY 2010 in order to determine the accuracy of FAA’s projection relative to the
first year of the contract.

To identify provisions of the 2009 CBA that could escalate costs beyond FAA’s
estimated amounts, we identified issues that FAA has historically undervalued
based on prior work. We also reviewed the 2009 CBA and interviewed officials
from FAA Headquarters, including the Strategy and Performance Business Unit,
the National Policy and Programs Office, and the Human Resource Management
branch, as well as representatives from NATCA to identify articles that had the
potential to cause additional expense compared to the 2006 work rules. We
conducted site visits and interviewed FAA air traffic officials at air traffic control
facilities (see exhibit C) to identify the operational adjustments, cost changes, and
financial impacts that the 2009 CBA has had on facilities.

To determine whether FAA had sufficient controls in place to prevent cost
escalations from occurring, we met with Labor Relations Officials at FAA
Headquarters and at five FAA Regional Offices, and we analyzed FAA’s criteria


Exhibit A. Scope and Methodology
                                                                             15

and established procedures to control items involved in the 2009 CBA. Such
items included controls over MOUs, workgroups, overtime, CIC pay, and shift
scheduling. We determined the effectiveness of FAA’s controls by collecting data
from air traffic officials at 24 air traffic facilities and Labor Relations
Representatives at 5 ATO Regional Offices. We also identified future controls
that FAA intends on implementing by meeting with representatives from FAA’s
Office of General Counsel at FAA Headquarters.




Exhibit A. Scope and Methodology
                                                                                                              16




EXHIBIT B. AIR TRAFFIC CONTROLLER PAY BANDS


                                           FY 2006                                        FY 2010
                                    2006 Work Rules                                      2009 CBA*
ATC Level                    Minimum                  Maximum                   Minimum         Maximum
                   4              37,200                   50,050                    40,869          55,173
                   5              37,200                   50,050                    43,038          58,101
                   6              44,750                   57,600                    49,986          67,481
                   7              45,300                   62,650                    52,469          70,833
                   8              52,850                   70,200                    59,841          80,785
                   9              55,200                   78,050                    63,991          86,388
                  10              62,750                   85,600                    73,103          98,689
                  11              67,400                   96,950                    77,844         105,089
                  12              74,950                  104,500                    84,523         114,106

*Only includes data for FY 2010. These pay bands will increase in FY 2011 and FY 2012.




Exhibit B. Air Traffic Controller Pay Bands
                                                                                17



EXHIBIT C. FAA AIR TRAFFIC FACILITIES VISITED OR
CONTACTED
Potomac TRACON                             Seattle TRACON

Washington ARTCC                           Seattle ARTCC

DeKalb-Peachtree ATCT                      Seattle Tacoma ATCT

Atlanta ARTCC                              Boeing Field ATCT

Atlanta TRACON                             New York ARTCC

Hartsfield-Jackson Atlanta ATCT            New York TRACON

Dallas Fort Worth ATCT                     Islip Macarthur ATCT

Dallas Fort Worth TRACON                   John F. Kennedy ATCT

Fort Worth ARTCC                           LaGuardia ATCT

Chicago TRACON                             Eastern Service Center

Chicago ARTCC                              Central Service Center

Chicago O’Hare ATCT                        Great Lakes Regional Office

DuPage County (IL) ATCT                    Northwest Mountain Regional Office

Aurora (IL) Municipal ATCT                 Eastern Regional Office

Paine Field (WA) ATCT




Exhibit C. FAA Air Traffic Facilities Visited or Contacted
                                                                  18



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


   Name                                        Title

   Robert Romich                               Program Director

   Betty Krier                                 Program Director

   Christopher Frank                           Project Manager

   Erik Phillips                               Senior Analyst

   Benjamin Huddle                             Senior Analyst

   Mi Hwa Button                               Analyst

   Andrew Olsen                                Auditor

   Aaron Rodgers                               Analyst

   Kang Hua Cao                                Economist

   Andrea Nossaman                             Writer/Editor




Exhibit D. Major Contributors to This Report
                                                                                          19


APPENDIX. AGENCY COMMENTS


                    Federal Aviation
                    Administration

Memorandum
Date:
To:            Jeffery B. Guzzetti, Assistant Inspector General for Aviation and Special
               Program Audits
From:          Clay Foushee, Director, Audit and Evaluations, AAE-1
Subject:       OIG Draft Report: FAA Needs To Strengthen Controls Over The 2009
               FAA/NATCA Collective Bargaining Agreement



During the 2009 contract negotiations with the National Air Traffic Controllers
Association (NATCA), the Federal Aviation Administration (FAA) conducted detailed
and comprehensive analyses to estimate the financial impact of the new collective
bargaining agreement. This was a complex endeavor that involved multiple variables
and detailed consideration of the factors that can affect each one. In light of the
complexity of these estimates, it is particularly gratifying to have the Office of Inspector
General (OIG), in its independent review of our process, conclude that FAA’s approach
was reasonable.

The OIG report could benefit from clarification with regard to its discussion of the effect
of FAA’s assumptions on the accuracy of its estimates. This is particularly true with
regard to its discussion of controller retirements and its affect on the accuracy of FAA’s
absolute payroll and incremental contract cost estimates. FAA has separately provided
more detailed technical comments to address this issue.

FAA is working to further strengthen its oversight of local memoranda of understanding
(MOU) with clearer direction for both headquarters and regional staff, and better
tracking. The need for controller participation in workgroups to provide operational
perspective in the development and deployment of new technologies is well established.
While there has been limited use of such mechanisms up to this point, we anticipate
increased use with the implementation of NextGen technologies. FAA intends to
supplement its policies and procedures in anticipation of this to ensure that workgroup
roles are well defined with clear expectations.




Appendix. Agency Comments
                                                                                         20

OIG Recommendation 1: Update the contract cost estimate of the 2009 collective
bargaining agreement (CBA) annually to reflect any changes to the underlying
assumptions and incorporate it into its annual budget request.

FAA Response: Concur. The results from FAA’s 2010 update demonstrated the
strength of the process, as FAA’s estimate for payroll costs in fiscal year 2010, the first
year of the new contract, was within $14 million of the actual $2.61 billion cost. This
reflects a very strong 99.5 percent accuracy. FAA recognizes that its assumptions are one
important factor that could affect variance from estimated values and will update the
payroll cost estimates annually to support FAA’s budget process.

It is worth noting that the OIG report does not specifically discuss the difference between
absolute payroll and incremental contract costs. The primary purpose for FAA’s cost
analysis in support of the 2009 negotiations was to isolate the incremental cost of changes
in contract terms. These contract changes include guaranteed pay increases and 30-35
percent pay band growth, which constitutes the vast majority of the estimated incremental
contract cost of $669 million. (The 2009 – 2012 controller pay bands are attached.) In
order to isolate the incremental cost of changes in contract terms, other non-contract
factors, such as the number of retirements, are not assumed to vary between contract
scenarios. Thus, while FAA recognizes that absolute payroll costs can change with
variances in factors such as retirement patterns, overtime rates, and new hire forecasts, it
is important to recognize these changes should not be assigned to or assumed to directly
impact the incremental contract costs.

Again, FAA is encouraged that OIG repeatedly finds FAA’s approach and analyses to be
reasonable. Since FAA has already completed its first annual update of payroll costs
under the contract, and intends to continue such analyses, we ask that this
recommendation be closed.

OIG Recommendation 2: Expedite completion of the MOU database and enter all
MOUs that were agreed to since the 2009 CBA was enacted.

FAA Response: Concur. As of March 30, the LERIS database became fully operational
and available for uploading and searching for new MOUs. The MOUs that have been
maintained in the labor relations (LR) regional offices since October 2009 are being
uploaded and made available in the nation wide data basis. It is anticipated that this
process will be accomplished by July 15, 2011. Prior MOUs, stored in the GETS data
base replaced by LERIS, were migrated to the LERIS system in October of 2009 and are
available nation wide. We are recommending that the OIG close this recommendation
based on the actions taken.

OIG Recommendation 3: Conduct an internal evaluation of its policies and procedures
for MOUs to ensure that the guidelines incorporated in FAA Order 3710.18 are being
followed.

FAA Response: Concur. The OIG report afforded the Agency the opportunity to review
each of the 77 MOUs cited with the respective facilities and to revisit compliance with


Appendix. Agency Comments
                                                                                         21

3710.18 procedures. The Director of Field Labor Relations evaluated each of the 77
MOUS and discussed applicable compliance and non-compliance issues with the facility.
Field and Headquarters Labor Relations have reviewed and reinforced with their staffs
and their line of business customers the imperative of following the Order. Additionally,
a comprehensive written description of Order 3710.18 along with clear, concise
instructions regarding adherence to and the application of the Order are included in the
FAA Labor Relations Standard Operating Procedure manual. The 3710.18 SOP is being
reissued by the Director of Field Labor Relations to the field staff reminding them of the
guidance and the requirement to comply with it. This will be accomplished prior to the
end of May, 2011. We are recommending that the OIG close this recommendation based
on the actions taken.

OIG Recommendation 4: Implement formal policies and procedures to oversee the
formation of workgroups, workgroup productivity, and implementation of workgroups
results and agreements.

FAA Response: Partially-Concur. The Agency has met with NATCA to jointly address
the appropriate and effective use of a collaborative process, including the use of
workgroups. As a result of this process, the FAA and NATCA have formed a national
Collaborative Work Group, and entered jointly into a formal program which requires
managers and union representatives to receive structured training on the use of work
groups as established in Article 48 of the parties CBA. This includes determining the
appropriate need for workgroups, defining scope and authority, and establishing
definitive measurable outcomes to be achieved.

In concert with the above, the Agency is developing a Knowledge Services Network
(KSN) site to track the necessary data. When this site is operational, management and
union co-leads of workgroups will have the joint responsibility to update the data on the
KSN site. This site will collect workgroup statistical data such as travel expenses, travel
time, time participating with the workgroup, and any overtime used to permit the
bargaining unit member to attend the meeting. Other information that will be
documented includes scope and/or expectations of the workgroup, estimated time to
complete project, purpose, and expectations/goals of each subsequent meeting. This
KSN site is in the final development stage and a document on “why and how” to use this
site is also being developed. It is expected that this process will be implemented by May
31, 2011.

Additionally, the Agency is developing a formal labor strategy stressing the need for
fiscal responsibility and prudence. This formal strategy is expected to conclude its formal
development by the end of fiscal 2011. In consideration of this and that the Agency has
entered into a formal process including national oversight and structured training with
NATCA, and is implementing technological resources to track workgroup activity, cost
and productivity, we expect these measures to suffice without the need for additional
formal policies and procedures..

                                          -----



Appendix. Agency Comments
                                                                                      22

We appreciate the opportunity to review and comment on a draft of this report. In
addition to the information presented here, FAA also provided a number of technical
comments on the report to OIG via email.




Appendix. Agency Comments
                                                                                                                  23

                   Air Traffic Controller Pay Bands: 2009-2012
                                         2009 Pay Bands (Excluding Locality Pay) - Per 2006 Contract
         Min/Max        4         5           6           7           8           9          10           11          12
         Maximum     $53,075   $53,075     $61,100     $66,575     $74,600     $82,675     $90,700     $102,775    $110,800
CPC
         Minimum     $39,400   $39,400     $47,425     $48,100     $56,125     $58,500     $66,525     $71,500     $79,525

         Maximum       N/A     $39,400     $47,425     $48,100     $56,125     $58,500     $66,525     $71,500     $79,525
D3
         Minimum       N/A     $37,975     $43,994     $44,500     $50,519     $52,300     $58,319     $62,050     $68,069

         Maximum       N/A       N/A       $43,994     $44,500     $50,519     $52,300     $58,319     $62,050     $68,069
D2
         Minimum       N/A       N/A       $40,563     $40,900     $44,913     $46,100     $50,113     $52,600     $56,613

         Maximum       N/A       N/A         N/A       $40,900     $44,913     $46,100     $50,113     $52,600     $56,613
D1
         Minimum       N/A       N/A         N/A       $37,300     $39,306     $39,900     $41,906     $43,150     $45,156

         Maximum     $33,700   $33,700     $33,700     $33,700     $33,700     $33,700     $33,700     $33,700     $33,700
AG
         Minimum     $33,700   $33,700     $33,700     $33,700     $33,700     $33,700     $33,700     $33,700     $33,700




                                         2010 Pay Bands (Excluding Locality Pay) - Per 2009 Contract
         Min/Max        4         5           6           7           8           9          10           11          12
         Maximum     $55,173   $58,101     $67,481     $70,833     $80,785     $86,388     $98,689     $105,089    $114,106
CPC
         Minimum     $40,869   $43,038     $49,986     $52,469     $59,841     $63,991     $73,103     $77,844     $84,523

         Maximum      N/A      $43,038     $49,986     $52,469     $59,841     $63,991     $73,103     $77,844     $84,523
D3
         Minimum      N/A      $41,546     $46,757     $48,619     $54,148     $57,261     $64,095     $67,651     $72,660

         Maximum      N/A       N/A        $46,757     $48,619     $54,148     $57,261     $64,095     $67,651     $72,660
D2
         Minimum      N/A       N/A        $43,528     $44,770     $48,456     $50,531     $55,087     $57,457     $60,797

         Maximum      N/A       N/A          N/A       $44,770     $48,456     $50,531     $55,087     $57,457     $60,797
D1
         Minimum      N/A       N/A          N/A       $40,920     $42,763     $43,800     $46,078     $47,264     $48,933

         Maximum     $37,070   $37,070     $37,070     $37,070     $37,070     $37,070     $37,070     $37,070     $37,070
AG
         Minimum     $37,070   $37,070     $37,070     $37,070     $37,070     $37,070     $37,070     $37,070     $37,070



                                         2011 Pay Bands (Excluding Locality Pay) - Per 2009 Contract
         Min/Max        4         5           6           7           8           9           10          11          12
         Maximum     $60,125   $65,981     $74,550     $80,511     $90,223     $98,256     $112,664    $119,163    $127,030
CPC
         Minimum     $44,537   $48,875     $55,222     $59,638     $66,832     $72,782     $83,455     $88,269     $94,096

         Maximum      N/A      $48,875     $55,222     $59,638     $66,832     $72,782     $83,455     $88,269     $94,096
D3
         Minimum      N/A      $45,924     $50,684     $53,996     $59,392     $63,854     $71,859     $75,469     $79,840

         Maximum      N/A       N/A        $50,684     $53,996     $59,392     $63,854     $71,859     $75,469     $79,840
D2
         Minimum      N/A       N/A        $46,146     $48,354     $51,951     $54,926     $60,263     $62,670     $65,583

         Maximum      N/A       N/A          N/A       $48,354     $51,951     $54,926     $60,263     $62,670     $65,583
D1
         Minimum      N/A       N/A          N/A       $42,712     $44,511     $45,998     $48,666     $49,870     $51,327

         Maximum     $37,070   $37,070     $37,070     $37,070     $37,070     $37,070     $37,070     $37,070     $37,070
AG
         Minimum     $37,070   $37,070     $37,070     $37,070     $37,070     $37,070     $37,070     $37,070     $37,070



                                         2012 Pay Bands (Excluding Locality Pay) - Per 2009 Contract
         Min/Max        4         5           6           7           8           9          10           11          12
         Maximum     $65,077   $73,861     $81,618     $90,189     $99,660     $110,122   $126,641     $133,287    $139,953
CPC
         Minimum     $48,205   $54,712     $60,458     $66,807     $73,822     $81,572    $93,808      $98,731     $103,669

         Maximum      N/A      $54,712     $60,458     $66,807     $73,822     $81,572     $93,808     $98,731     $103,669
D3
         Minimum      N/A      $50,302     $54,611     $59,373     $64,634     $70,447     $79,624     $83,316     $87,019

         Maximum      N/A       N/A        $54,611     $59,373     $64,634     $70,447     $79,624     $83,316     $87,019
D2
         Minimum      N/A       N/A        $48,764     $51,939     $55,446     $59,321     $65,439     $67,901     $70,370

         Maximum       N/A       N/A         N/A       $51,939     $55,446     $59,321     $65,439     $67,901     $70,370
D1
         Minimum       N/A       N/A         N/A       $44,504     $46,258     $48,196     $51,255     $52,485     $53,720

         Maximum     $37,070   $37,070     $37,070     $37,070     $37,070     $37,070     $37,070     $37,070     $37,070
AG
         Minimum     $37,070   $37,070     $37,070     $37,070     $37,070     $37,070     $37,070     $37,070     $37,070




      Appendix. Agency Comments
